Audit Report



Return
    to the USDOJ/OIG Home Page




Grants Administered by the National American Indian Court Judges Association National Tribal Justice Resource CenterBoulder, Colorado

Report No. GR-60-04-001


December 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Tribal Court Technical Assistance grant awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) to the National American Indian Court Judges Association, National Tribal Justice Resource Center (NTJRC), Boulder, Colorado.  The purpose of the grant was to establish an online resource for tribes by identifying and developing online tools and resources for daily support and technical assistance for tribal justice systems.  Between March 2000 and September 2003, the NTJRC was awarded a total of $1,442,112 to implement and enhance online technical assistance for tribal justice systems.
We tested the NTJRC's accounting records to determine if reimbursement claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit revealed that unallowable and unsupported costs were charged to the grant, excess funds were drawn down, required reports were not always submitted timely, and a current audit of federal funding to the NTJRC (Single Audit) had not been conducted.  As a result of the deficiencies identified below, we question $31,921 in grant funds received.1  Specifically, we found:

The salary for two employees exceeded the approved amount by a total of $15,812.


Costs totaling $3,439 were charged to the grant that were not supported by an invoice.


Unallowable costs of $1,608 were charged to the grant for entertainment and memorabilia.


Fringe benefits totaling $11,062 were charged to the grant that was not approved in the Financial Clearance Memo.


A Single Audit had not been performed for the fiscal year ended September 30, 2002.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for the definition of questioned costs.